November 23, 1999

E. KAYE DeSHIELDS
MANAGER, RETAIL PRODUCT AND
 SERVICES DEVELOPMENT

SUBJECT: Sure Money Electronic Funds Transfer Service Expansion to Dominican
         Republic (Report Number FR-LA-00-001)

The Postal Service Sure Money electronic funds transfer service with Mexico, known as
the Dinero Seguro ("Sure Money" in Spanish) Program, offers delivery of consumer
funds between 870 post offices in the United States and 1,200 bank locations in
Mexico. We completed a review of the Dinero Seguro Program in April of this year and
one of our recommendations was to lower the daily transaction threshold for an
individual from $2,999 to $2,000. We identified in our review that less than one-half of
one percent of the Dinero Seguro transactions that had been sent to Mexico were for
$2,000 or more; therefore, lowering the threshold would have little impact on the
revenues of the program while reducing the risk that the program would be used for
money laundering. The Chief Marketing Officer concurred with this recommendation
and provided us with actions that would be taken to implement the recommendation.

Our office has reviewed a draft solicitation for contract, Solicitation Number
               -               , for expansion of the Sure Money electronic funds transfer
service to the Dominican Republic. This program will be referred to as the Dinero
Seguro- Dominican Republic Program. During our review of the draft solicitation for
contract, we identified that it contained daily limits of $2,999. We suggest, based on
our prior review of the Dinero Seguro Program in Mexico, that the daily transaction
threshold be lowered to $2,000 for the Dinero Seguro-Dominican Republic Program as
well. Further, we suggest that the daily limit for all future expansions of the Sure Money
electronic funds transfer service to other countries is kept at $2,000. These limits could
be further evaluated in the future if market demands dictate and enhanced internal
controls justify the raising of these limits. However, as stated earlier, we currently
believe that these limits will have little or no impact on Postal Service revenues while
reducing the risk that the services will be utilized for money laundering.
Based on our discussion with your staff, we understand that you have already
decreased the daily transaction threshold to $2000. We will continue to assist you as
the effort progresses and provide suggestions as needed. Please do not hesitate to
call              , or me at (703) 248-2300, if you have any questions.



Richard F. Chambers
Assistant Inspector General
 for Performance

cc: A
    	 llen Kane
    Patricia M. Gibert
    Patricia A. Roberts
    John R. Gunnels
